  AUDIT OF OVERSIGHT OF LOAD
    RATINGS AND POSTINGS ON
STRUCTURALLY DEFICIENT BRIDGES
ON THE NATIONAL HIGHWAY SYSTEM

      Federal Highway Administration




          Report No. MH-2006-043
         Date Issued: March 21, 2006
                                                                    Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   ACTION: Report on Federal Highway                                               Date:    March 21, 2006
           Administration Oversight of Load Ratings and
           Postings on Structurally Deficient Bridges on the
           National Highway System
           Report No. MH-2006-043


  From:    Kurt Hyde                                                                    Reply to    JA-40
                                                                                        Attn. of:
           Assistant Inspector General
            for Surface and Maritime Programs
    To:    Acting Federal Highway Administrator

           This report presents the results of our audit of the Federal Highway
           Administration’s (FHWA) oversight of structurally deficient bridges on the
           National Highway System, specifically inspections, load ratings, and maximum
           weight postings.2 A structurally deficient bridge is one that Structurally Deficient
           has major deterioration, cracks, or other flaws that reduce its        NHS Bridges
                                                                                Year      Number
           ability to support vehicles. Proper and regularly scheduled         2000        6,715
           reviews of the calculations of all bridges’ maximum safe load       2001        6,643
           ratings are important because as a bridge ages, corrosion and       2002        6,476
           decay can decrease its capacity to support vehicles. Some           2003        6,491
           bridges are weakened to the point that signs must be posted to      2004        6,399
                                                                                                              1
           bar vehicles heavier than the calculated maximum load. A Source: FHWA
           structurally deficient bridge can suffer partial failures that further decrease its
           capacity and can pose a risk to public safety.3 In the worst-case scenario,

           1
               This report is based upon the Calendar Year (CY) 2003 National Bridge Inventory. The CY 2004
               inventory was released after field work was completed. The inventory figures for 1999 and earlier are
               not listed because reclassification issues resulted in downward revisions to the total of structurally
               deficient bridges.
           2
               Federally owned bridges on the National Highway System were not included in the samples reviewed in
               this report.
           3
               A bridge can also be considered structurally deficient if the waterway opening provided by the bridge is
               insufficient and causes intolerable interruptions of traffic.
                                                                                                                        2

  corrosion and decay of bridge structures can weaken a bridge to the point of
  collapse.

  Most Federal bridge safety standards were created in 1968 in response to just such
  a catastrophe—an Ohio River bridge collapse, caused by corrosion,4 that killed
  46 people in 1967. Despite the creation of new standards, four more major bridge
  failures in Connecticut, New York,5 Tennessee, and California from 1983 to 1995
  killed a total of 28 people. All five of these major bridge failures were caused at
  least in part by structural deficiencies (see Figure 1). These failures have made
  clear that regular inspections that check for corrosion, decay, and a reduction in
  weight capacity are important tools for ensuring that bridges are safe. See
  additional background information in Exhibit A.

       HOW BRIDGES BECOME STRUCTURALLY DEFICIENT
                                                                        Water and deicers
                                                                        corrode steel         Speed, surface roughness and truck
                                Debris inhibits    Standing water       reinforcement,        suspension interact to amplify stress.
                                deck drainage.     promotes deck        causing spalling.
                                                   deterioration.




Bridge superstructure is                                                                              Debris-clogged joint
susceptible to corrosion, water                                                                       prevents movement
damage, metal fatigue and stress                                                                      necessary to relieve
caused by vibration.                                                                                  superstructure stresses.


                                           Surface corrosion                                          Improper drainage causes
                                                                                                      damage to concrete.


           Decay or                       Water movement can scour                                    Crack in substructure
           misalignment                   away soil under foundation.                                 caused by settling of
           of bearings                                                                                foundation.


      Source: Illustration by Jana Brenning. Copyright Jana Brenning. Reprinted with permission.
      Illustration first appeared in Scientific American, March 1993.

  Figure 1. Water, salt, stress, and corrosion can make a bridge structurally
  deficient, decrease its load rating, and create the need for a weight limit.

  4
      During casting, a minute crack formed in a steel eye-bar used in construction of the Silver Bridge over
      the Ohio River. Stress corrosion and corrosion fatigue caused the crack to grow until the eye-bar failed.
  5
      The Schoharie Creek Bridge in New York State that collapsed in 1987 had a design fault that allowed
      water flow in the creek to scour away material around the bridge pier footings (see illustration above).
      Bridge inspections now include observations for scour that were not required in 1987.
                                                                                                         3

The objectives of this audit were to evaluate whether state transportation
departments inspected structurally deficient bridges on the National Highway
System in accordance with National Bridge Inspection Standards (Inspection
Standards) and properly calculated load limits and posted maximum weight limits,
and whether FHWA exercised effective oversight of the states’ actions in
inspecting bridges, calculating load limits and posting maximum weight limits.
Police enforcement of posted maximum weight limits is also needed to keep
overweight vehicles off structurally deficient bridges, but its effectiveness depends
upon current and accurate load ratings. To conduct this audit, the Office of
Inspector General (OIG) contracted with the U.S. Army Corps of Engineers
(Corps) to provide expert technical support, under the direction of the OIG
engineer advisor. The engineers surveyed the condition of bridges in the field in
New York and Texas and reviewed bridge records in these states as well as
Massachusetts. See Exhibit B for the audit’s scope and methodology.

BACKGROUND
The 2003 National Bridge Inventory (Bridge Inventory) maintained by FHWA
identified about 592,000 highway bridges. Of those, 114,676 were part of the
National Highway System, which includes the nation’s most important highways.
Some 6,491 of National Highway System bridges, including some in each of the
50 states, Puerto Rico, and the District of Columbia were classified as structurally
deficient in 2003 because they had major deterioration, cracks, or other
deficiencies in their decks, structure, or foundations6 (see Exhibit C for data on
bridges in each state).

The practice of calculating the load rating of structurally deficient bridges and, if
necessary, posting signs to keep heavier vehicles from crossing them, serves to
protect structurally deficient bridges from powerful stresses caused by loads that
exceed a bridge’s capacity. The load rating is a calculation of the weight-carrying
capacity of a bridge and is critical to the bridge’s safety. A load rating is
performed separately from the bridge inspection, but is based upon design
capacities supplemented with data and observations of the bridge’s physical
condition provided by a bridge inspector. The load rating, expressed in tons,
serves as the basis for posting signs noting the vehicle weight limit restriction,
which can be referred to more simply as the bridge’s maximum weight limit. The
load rating is calculated at two design strength capacity levels: the operating,
which is the higher level, and the inventory, which is the lower level.7 A
structurally deficient bridge is not necessarily unsafe for use, nor incapable of
6
    Some of these bridges may have been declared structurally deficient because the waterway opening was
    insufficient and caused intolerable traffic interruptions.
7
    The operating rating is the absolute maximum permissible load level to which a bridge may be subjected,
    while the inventory rating represents a lower load level to which a bridge may be subjected for an
    indefinite period of time.
                                                                                                       4

carrying legal loads, provided that accurate inventory data, including load ratings,
are documented. Most structurally deficient bridges can continue to serve traffic
safely if they are properly inspected, the bridges’ maximum load ratings are
properly calculated, and, when necessary, the proper maximum weight limits are
posted.

A maximum weight limit sign must be posted on a National Highway System
bridge whenever the maximum vehicle weight that state regulation allows on that
highway exceeds the bridge’s maximum weight limit determined by the operating
rating or equivalent rating factor.8 (On most Federal highways in most states, the
maximum gross vehicle weight is 40 tons for a typical, fully loaded 18-wheel
tractor-trailer having 5 axles. In 22 states, trucks with more axles are permitted on
some highways, and these vehicles have maximum gross weights of 43.2 to 82
tons.)

In a worst-case scenario, the lack of a correct load rating or the lack of a weight
limit posting could allow heavier vehicles to cross and cause severe structural
damage or the collapse of a bridge. Correct bridge load rating data and
calculations are also important for the Bridge Inventory, which is the basis for the
bridge information in the Department’s report to Congress—“Status of the
Nation’s Highways, Bridges, and Transit: Conditions and Performance.” An
incorrect load rating in the Bridge Inventory could affect whether a bridge is
properly identified as structurally deficient and properly reported in the bridge
statistics submitted to Congress for safety and funding decisions.

Each state’s Department of Transportation performs bridge inspections and load
ratings, while the state or other governmental entity that owns the bridge performs
repairs and posts maximum weight limit signs. State officials we interviewed said
that in some cases, this division of duties and responsibilities can hinder prompt
resolution of problems with weight limit postings and repairs to deficiencies that
bridge inspections reveal.           The Massachusetts Highway Department
(MassHighway), for example, is responsible for inspecting and performing load
ratings on the North Washington Street Bridge that was cited by the Corps in this
audit, but the City of Boston owns the bridge and is responsible for making repairs
and posting weight limit signs on the bridge.

Hurricane Katrina recently underscored the importance of the accuracy of the
Bridge Inventory. To speed hurricane relief efforts, several state governments
increased or suspended the maximum legal weight of tractor-trailers so that the
trucks could carry heavier cargos of food, water, ice, temporary shelters, building
materials, construction equipment, and storm debris. For example, Alabama

8
    Some state highway departments may choose to post at the inventory rating or other weight limit lower
    than the operating rating.
                                                                                  5

Governor Bob Riley signed an emergency proclamation on August 26, 2005,
increasing the state’s maximum gross weight limit on some large trucks from
40 tons to 48 tons. It is important that load ratings be accurately calculated and
listed in the Bridge Inventory in case, as in this situation, officials must chart a
safe route for overweight loads.

Bridges with weight limitations can cause delays, higher costs for businesses, and
problems for public safety by requiring heavy trucks and emergency vehicles to
use longer alternative routes. These delays would be especially critical during
national emergencies such as Hurricane Katrina, which require rapid transport of
emergency relief personnel, hardware, construction equipment, or heavy supplies.
Additionally, errors in load rating and posting can cause unnecessary delays and
costs if a bridge is incorrectly posted and requires a vehicle that can safely use a
bridge to instead detour to a longer route.

RESULTS IN BRIEF
We found that, overall, the bridge inspections in Massachusetts, New York, and
Texas that we reviewed were adequate, generally complete, and accurate.
However, we found errors in the calculation of load ratings or in the posting of
maximum weight limits or other related errors for 33 of the 43 bridges reviewed in
a sample from the three states. On at least 12 of the 33 bridges, errors allowed
vehicles to cross that were heavier than the bridge’s maximum weight limit. Of
these 12 bridges, 11 that required posting were not posted, and one bridge was
incorrectly posted at a maximum weight limit higher than the actual weight limit
derived from load rating calculations. The inventory data for the other 21 bridges
had errors and inaccuracies such as missing posting signs, and outdated or
unsupported load ratings, which could have allowed heavier than permissible
vehicles to cross, but that could not be evaluated further due to the absence of
accurate load ratings.

FHWA can improve its oversight of the states to ensure that maximum weight
limit calculations and postings are accurate. For example, the Corps found that a
bridge in Massachusetts had been inspected 8 times over the previous 5 years and
designated for repair. The poor condition of the bridge also warranted a
recalculation of its load rating and posting of new signs showing a lower
maximum weight. The Corps found that load ratings, postings, and lane closures
on the bridge had been recommended, but not completed in a timely manner,
which would permit vehicles that were too heavy for the bridge to travel over it.

Inaccurate or outdated maximum weight limit calculations and posting entries
were recorded in bridge databases of the state transportation departments and in
the Bridge Inventory. Bridge Inventory data is a component of the calculation for
distribution of Federal funds for bridge rehabilitation and replacement, and these
                                                                                   6

errors could contribute to misdirecting funds and actions in the effort to reduce the
number of structurally deficient bridges.

After finding bridge load rating and weight limit posting deficiencies during our
survey in New York and Texas, we expanded the study nationwide. We asked the
Corps to perform a separate engineering review of inspection reports and other
documents from a random sample of 67 bridges drawn from all 50 states, the
District of Columbia, and Puerto Rico. For 6 of the 67 bridges, we found errors in
calculating bridge load ratings or in failing to post weight limit signs which would
have allowed vehicles that exceeded the bridge’s maximum weight limit to cross
the bridge. A statistical projection based on the analysis of that sample suggested
that the load ratings for as many as 10.5 percent of the thousands of structurally
deficient bridges on the National Highway System are inaccurate. As a result of
our detailed analysis of these records, we projected that among the structurally
deficient bridges on the National Highway System:

   • Load rating calculations for 10.5 percent did not accurately reflect the
     condition of the structure. Growing shear cracks in the beams of a New
     Mexico bridge, for example, were not taken into account when it was rated
     for its load carrying capacity. Because the degradation of the bridge’s
     structure was not factored into its rating, its safe load capacity may have
     been overstated. This may have allowed vehicles that are too heavy for the
     bridge to continue to use it. Similar problems and results were found for an
     Oklahoma bridge that lost concrete from its deck.

   • About 7.8 percent of the bridges were required to have maximum safe
     weight signs posted on them, but the signs were not posted and too-
     heavy vehicles were allowed to cross them. For example, the maximum
     load rating of a Massachusetts bridge was 27 tons, but MassHighway’s
     district engineer waived the posting requirement without documenting any
     justification. An Oregon bridge should have had a 10-ton maximum weight
     limit sign, but the Bridge Inventory listed a maximum load rating of 36 tons
     and the bridge was not posted. In another example, a State of Washington
     bridge built in 1925 showed significant deterioration and should have been
     posted because its maximum load rating was 28 tons, which is lower than
     legal load limits. No sign was posted.
   • Procedures were not properly followed during the calculation of load
     ratings for 10.5 percent of the bridges, which could cause either
     incorrectly high weight limits—and excess loads—or incorrectly low
     maximum weight limits—and needless detours. For example, a
     Kentucky bridge was rated with a maximum weight limit of 68 tons based
     on the capacity of the weakest pier on the bridge to resist forces that would
     cause the pier to bend. But the Corps found that calculating a load rating
                                                                                  7

      using the pier’s shear capacity—the capacity to resist forces that would
      cause the pier to snap as if being cut in two—resulted in a maximum weight
      limit of 30 tons. This was a deviation from proper rating procedures, which
      would have been to set the maximum weight limit at the lower of those two
      figures. Also, a single-span composite bridge in Rhode Island did not have
      any load rating calculations, and the load rating recorded in the state’s
      bridge inventory and the Bridge Inventory was “0.” Inspection records
      documented that there were temporary supports (shoring) in place. This is
      a deviation from proper procedures because load ratings should be
      calculated for the bridge without shoring. The calculation is to determine
      first that the bridge is unable to withstand any load without shoring, and
      second to specify the shoring necessary for the deficit in structural capacity
      found by the calculations.

These errors could cause further structural damage or failure from a vehicle
crossing a bridge that is too weak to carry the vehicle’s weight. An error could
also result in an underestimation of load-carrying capacity, leading to a posted
maximum weight limit that is unnecessarily restrictive, sending heavy emergency
vehicles and delivery trucks on a circuitous detour route. Unnecessary rerouting
can delay emergency responses and cause excess costs for businesses and
government services.

FHWA however does not require its Divisions to analyze bridge inspection data to
better identify and target specific structurally deficient bridges most in need of
load limit recalculation and posting. Also, FHWA’s Division Offices in the three
states we reviewed did not ensure that states’ bridge load ratings were properly
calculated, or that corresponding postings were performed. Thus, FHWA can do
more to align its oversight practices with guidelines in the 1993 FHWA policy
memorandum on Bridge Load Ratings for the National Bridge Inventory, which
recognizes the importance of monitoring states’ efforts to keep reliable, uniformly
consistent, and current bridge load ratings.

In a draft of this report, we recommended that FHWA revise its annual compliance
reviews of state bridge programs to address the most serious deficiencies found
during bridge inspections, and to develop a risk-based, data-driven approach and
metrics to ensure states maintain up-to-date maximum weight limit records, post
accurate maximum weight limit signs in a timely manner, and improve the
accuracy and completeness of the Bridge Inventory and reporting to Congress.
We also recommended that FHWA evaluate greater use of computerized bridge
management systems to improve states' bridge inspection programs and enhance
the accuracy of bridge load ratings. In responding to our draft report, FHWA
agreed with the recommendations and also provided detailed information as
                                                                                                8

clarification. Based on our review of this additional information, we revised
sections of this report as appropriate.

RESULTS
State Inspections Were Adequate, but Load Ratings and Maximum
Weight Postings Were Not Accurate
Overall, the three states that we reviewed performed adequate inspections of
structurally deficient National Highway System bridges in accordance with
Inspection Standards for frequency of inspection, professional, and training
qualifications of inspectors, identification of critical safety items, and reporting
bridge conditions. Based on a review of inspection files for 43 bridges in three
states, the Corps concluded that written bridge inspection and recording
procedures were well-defined and matched closely with the intent of the
Inspection Standards.

The Corps, however, found problems with the calculation of load ratings, the
posting of maximum weight limits, and other related problems for 33 of the
43 bridges reviewed (see Table 1). One Massachusetts bridge had been inspected
8 times over the previous 5 years and designated for repair. The condition of this

              Table 1. Load Rating Calculation and Posting Problems Found
                     Bridges    Bridges With   Bridges Used                Problems
      State         Reviewed     Problems      by Too-Heavy                 Found
                                                 Vehicles
 Massachusetts         15              13           3         Load rating calculations were not
                                                              performed; maximum weight limit
                                                              signs were not posted, posted
                                                              incorrectly, or were missing.
   New York            14              11           3         Ratings did not reflect the degraded
                                                              conditions of the bridges; maximum
                                                              weight limits were not posted or
                                                              were posted incorrectly.
     Texas             14              9            6         Maximum weight limits were not
                                                              posted; bridge ratings were
                                                              improved without supporting data;
                                                              bridges were not inspected
    TOTAL              43              33          12         frequently enough; load rating
                                                              calculations were not clear.
Source: U.S. Army Corps of Engineers

bridge also warranted a recalculation of load rating and corresponding posting.
The Corps found that load ratings, postings, and lane closures on the bridge were
recommended but not completed in a timely manner. The Corps reported that
conditions warranting lane closure and weight limits were present for at least a
year before mitigating repairs were made. The deficiencies and concerns that the
Corps identified in Massachusetts are particularly significant because the state
                                                                                 9

allowed the situation to remain unchanged for many years. In December 1997, the
Massachusetts State Auditor issued a report (No. 97-4040-3: State Auditor’s
Report on the Massachusetts Highway Department’s Bridge Management
Activities) that found that the load capacity had not been established for many
bridges in the state and some bridges were not posted with maximum weight limit
signs when necessary.

The Massachusetts State Auditor’s report found that 40 percent of the state’s
bridges had not been rated to determine the maximum weight limit, and 11 percent
of the bridges that had been rated were not posted to indicate to the public the
weight limits for the bridges. Some had not been posted for many years.
Although the State Auditor conducted its audit in 1997, we continue to find similar
issues some 6 years later. For example, we found that in 2003, Boston’s North
Washington Street Bridge (see Figure 2) was inspected and rated as unsafe for
vehicles weighing 4 tons—the equivalent of a very large and heavy sport utility
vehicle. Despite the revised load rating, Boston continued to allow trucks carrying
hazardous materials and weighing as much as 50 tons to cross the bridge.

Figure 2. Severe Corrosion of Support Beam on a Massachusetts Bridge




Source: Massachusetts Highway Department

In another example, we found that a bridge connecting two boroughs in New York
City lacked required weight limit signs for more than a year. The Corps was
concerned that the poor condition of the bridge and lack of posting for load limits
(corresponding to the poor bridge condition) had gone uncorrected for more than a
year. The load rating shown in the Bridge Inventory was overstated at 55 tons, but
state records indicated the bridge should have been load posted for 25 tons or
less—a single tractor-trailer that represents the typical maximum load allowed by
law on most Federal highways weighs 40 tons (trucks with even heavier loads are
allowed on some highways with approved permits).
                                                                                   10

Among the Texas bridges that the Corps’ engineers reviewed, they found an
unposted bridge with a load rating of 20 tons. According to both state and Federal
criteria, the bridge should have been posted because of the low load rating and the
poor physical condition of the bridge. Further, according to state criteria, the
inspection frequency should have been 12 months rather than the 24 months
recorded in the state inventory data.

Load Rating and Weight Limit Posting Errors in Nationwide Sample

To determine the extent of bridge load rating and weight limit posting deficiencies
nationwide, the Corps performed a separate engineering review of bridge
documents from a national random sample of 67 bridges. A statistical analysis
projected the Corps’ findings to the total of structurally deficient bridges on the
National Highway System at the time of its review. Based on the findings, we
identified the following load rating or posting errors, and estimated the percentage
of structurally deficient bridges on the National Highway System that would show
each of those error types.

     • For 10.5 percent of the bridges, the load rating calculations did not
       accurately reflect the significant deterioration reported in bridge
       inspections.9 Deterioration reduces the load-carrying capacity of a bridge
       and should be accounted for in the rating calculations to avoid bridge
       overloading. For the two bridges in the examples below, the load capacity
       of the bridge may have been overstated.
         For example, the inspection report of a five-span concrete bridge in New
         Mexico documented shear cracks in the beams that grew in size over
         several years, which indicated loading that exceeded the beams’ capacity.
         Deterioration, however, was not accounted for in the rating calculations for
         this bridge.
         In a similar situation, the load ratings for an eight-span composite bridge
         (concrete deck over steel girders) in Oklahoma were calculated by taking
         into account the relatively good condition of the girders under the deck.
         However, the inspection records show the condition of the bridge deck was
         worse than the condition of the girders, due to heavy material loss that had
         exposed the reinforcing steel bars. According to the Corps, the loss of
         concrete from the deck should have been taken into account in the rating
         calculations. A load rating is determined by the bridge member with the
         most deteriorated condition, or the lowest structural capacity, which in this
         case was the deck.



9
    Margin of error is +/- 5.3 percentage points.
                                                                                        11

      • Rating procedures were not properly followed for 10.5 percent of the
        bridges, putting in doubt the accuracy of the load carrying capacity
        calculated for these bridges as well as the decision to post or not post a
        weight limit.10 Failing to follow proper rating procedures creates safety
        concerns and impairs sound management of the bridge network by making
        it difficult to properly rank the bridges by the amount and urgency of
        repairs needed. In the worst-case scenario, vehicles far exceeding the safe
        weight limit could be using these bridges.
           The load ratings for a bridge in Kentucky calculated that the bridge’s
           weakest pier could withstand a maximum weight of 30 tons based on the
           pier’s capacity to resist forces that would cause the pier to shear, or break in
           two. The ratings also calculated a maximum weight limit of 68 tons based
           on the capacity of the same pier to resist forces that would bend the pier.
           The higher weight limit was the value incorrectly entered in the Bridge
           Inventory. Proper procedures require that the lowest maximum weight
           limit be entered in the Bridge Inventory—in other words, a chain is only as
           strong as its weakest link.
           The load rating calculations for a three-span steel bridge in Oklahoma,
           which were not dated, produced a maximum weight limit of 79 tons.
           Rating calculations must be dated to determine whether recalculation is
           necessary due to condition changes reported in subsequent inspections. The
           calculated weight limit is supported by neither the 2001 Bridge Inventory
           data, which reported a maximum weight limit of 49 tons, nor by the 2002
           inspection, which did not report any improvements in physical condition to
           justify the higher weight limit calculated.
      • About 7.8 percent of the bridges were required to be posted for weight
        limits but were not posted. Consequently, vehicles heavier than what
        should have been allowed were permitted to use these bridges. If bridges
        are frequently overloaded, they will deteriorate more quickly, and failures
        of parts of the bridge or the entire structure are possible.11 For example,
        the calculated maximum load rating for a three-span bridge in
        Massachusetts was 27 tons, which matched the conditions and other data
        recorded in state inspection reports and the Bridge Inventory. The state
        transportation department’s District Engineer, however, waived the posting
        requirement without documenting any justification for the waiver.
           In Oregon, the maximum load rating calculated for a three-span composite
           bridge was 10 tons and the bridge should have been posted with a weight
           limit sign. The Bridge Inventory, however, listed a maximum load rating of

10
     Margin of error is +/- 5.3 percentage points.
11
     Margin of error is +/- 4.7 percentage points.
                                                                                     12

           36 tons and said that the bridge was not posted. State records indicated that
           the bridge was not posted.
           Finally, the maximum load rating calculated for a five-span steel truss
           bridge in the state of Washington was 28 tons, which required that the
           bridge be posted.        The state inspection report noted significant
           deterioration, which was included in the rating calculations. The Bridge
           Inventory reported the same ratings and conditions but noted the bridge was
           not posted. This bridge should have been posted because its main span was
           designed for an unknown vehicle load when it was built in 1925, and
           because deterioration since then has reduced its load-carrying capacity.
      • Load rating data for 40.5 percent of the structurally deficient National
        Highway System bridges did not match the Bridge Inventory. In these
        cases, important decisions on maintenance priorities are impaired.
        During disasters and national emergencies, inaccurate information could
        cause errors in selecting strategic routes for deployment of military and
        emergency fleets, as well as heavy trucks carrying materials and
        equipment for reconstruction.12
           The maximum weight limit calculated for a two-span pre-stressed concrete
           bridge in Pennsylvania was 76 tons. The Bridge Inventory reported the
           same physical conditions of the bridge that were found in the state
           inspection used to calculate the 76-ton weight limit, but listed a maximum
           weight limit of 110 tons. There was no explanation for the difference in
           load carrying capacities without significant changes in bridge conditions.
           The undated load rating calculations for an 18-span concrete bridge in
           Texas produced a maximum weight limit of 99 tons. This rating was not
           supported by the state’s inventory data of 2003, which reported a maximum
           load rating of 25 tons with the same physical conditions that were reported
           in the 2001 Bridge Inventory. In contrast, the Bridge Inventory reported a
           maximum weight limit of 44 tons. There is no proof that the structural
           conditions or functional requirements changed enough to support three
           different load rating calculation results within a 2-year period.
Although some load rating errors might be avoided with the help of computerized
bridge management systems, these systems are still not used in all states. FHWA
and the American Association of State Highway and Transportation Officials
(AASHTO) developed a computerized bridge management program, Pontis, and a
specialized bridge load rating program, Virtis, that can help states track bridge
conditions, including the progress of scheduled maintenance and necessary
repairs. Improved information on the status of bridges and metrics could help


12
     Margin of error is +/- 8.9 percentage points.
                                                                                 13

prioritize limited resources and provide better data for FHWA’s risk assessments
of state bridge programs, as well as assist in national emergencies.

FHWA Oversight and Compliance Reviews Limited in Effectiveness
FHWA’s Division Offices in the three states we reviewed did not ensure that
states’ bridge load ratings were properly calculated and corresponding postings
were performed. Our national survey showed that similar problems existed
nationwide. FHWA also did not require its Divisions to analyze bridge inspection
data to better identify and target those structurally deficient bridges most in need
of load limit recalculation and posting. Further, FHWA’s enforcement of the
states’ compliance with Inspection Standards was limited. The Inspection
Standards recognize the importance of monitoring states’ efforts to repair,
rehabilitate, or replace bridges and to properly post maximum weight limit signs.
Thus, FHWA can do more to align its oversight practices with guidelines in the
1993 FHWA policy memorandum on Bridge Load Ratings for the National Bridge
Inventory, which recognizes the importance of monitoring states’ efforts to keep
reliable, uniformly consistent, and current bridge load ratings.
A 1992 FHWA directive ordered Divisions to require states to comply with the
inspection and maximum weight posting requirements of the Inspection Standards
and suspend Federal aid to states that did not comply with the requirements. We
found that more than a decade later, FHWA Divisions in Massachusetts and Texas
still needed to take more aggressive action to identify and address bridge
inspection and posting deficiencies in their states.
For example, the Corps’ review found serious problems with bridge maintenance
and posting in Massachusetts, but FHWA never suspended Federal aid to that
state, even after the Massachusetts State Auditor found severe deficiencies in
managing its structurally deficient bridges. In addition, our November 19, 2004,
report on FHWA’s process for “Managing Risk in the Federal-Aid Highway
Program,” (Report Number MH-2005-012) found that the risk assessment
conducted by the Texas Division Office had evaluated only 4 of the 18
components of the bridge program. Our audit found that the Texas Division’s two
bridge engineers had limited time for bridge oversight and the Division’s annual
compliance review did not evaluate bridge data to focus on compliance with
inspection and maximum posting requirements.
The time FHWA engineers have available for bridge oversight is limited. There is
an FHWA Division office in every state, as well as the District of Columbia and
Puerto Rico. The Federal bridge program involves approximately 600,000 bridges
greater than 20 feet in length, including those not on the National Highway
System. FHWA Divisions have 52 engineers, in some cases assisted by additional
engineer staff, designated to handle Federal bridge program oversight
                                                                                  14

responsibilities. In addition, FHWA bridge engineers also perform other highway
activities.
We found time constraints restricted bridge engineers’ reviews to only a small
percentage of the total number of bridges in the state. For example, the FHWA
bridge engineer in Texas informed us that he spent only about 15 percent of his
time on oversight of the bridge inspection program. The majority of his time was
spent providing technical assistance, construction inspection, final planning,
primary planning, technical reviews, and committee meetings. Accordingly, little
time was available to review bridge documents, analyze inspection data, and make
field visits to verify state compliance with Inspection Standards. In addition, until
October 2005, he spent up to 30 percent of his time on work not associated with
bridges, specifically, performing hazardous material tank inspections for the
Federal Motor Carrier Safety Administration.
Additionally, FHWA's annual compliance review process in the Texas Division
office relied on state information that it did not independently verify. FHWA did
not base its annual compliance reviews on analyses of bridge data that focused on
the most serious bridge deficiencies, particularly those that remained uncorrected
after multiple inspections or that posed a potential threat to public safety.

The bridges selected for FHWA’s annual compliance reviews are not necessarily
structurally deficient, and not all of them are on the National Highway System.
For example, FHWA’s Texas bridge engineer told us that he reviewed monthly
reports from the state that summarize the status of bridge inspections for each of
the 25 Texas Department of Transportation districts, but did not necessarily select
bridges for review based on whether they had been identified as deficient. The
bridge engineer could not provide a list of the specific bridges that he had
inspected, or what aspects of the bridges were inspected.

Texas provides an example of the limitations of FHWA’s compliance reviews.
Texas has 48,492 bridges on the 2003 Bridge Inventory, by far the largest number
of all states, but has only one FHWA bridge engineer and one assistant engineer.
Of the 15,072 National Highway System bridges in Texas, 193 are structurally
deficient. As part of the annual compliance review, the FHWA Texas Division
performs approximately eight follow-up reviews of bridge documents each year,
and visits about six bridges per review (for a total of only 48 of the 48,492 bridges
in the state) to ensure that inspections performed by the Texas Department of
Transportation are done in accordance with Inspection Standards.

Effective annual compliance reviews are important for FHWA to assess the status
of its National Bridge Inspection Program, and identify important safety issues,
weaknesses, and areas for improvement in state and local bridge inspection
programs. Until the 1990s, each FHWA Division was required to submit a copy
                                                                                    15

of its state’s annual Inspection Standards compliance review to FHWA
Headquarters. When the requirement was withdrawn, the number of Divisions
submitting copies of annual reviews declined significantly. This reduced FHWA’s
ability to develop national data summaries for reports to Congress; to respond to
inquiries from Congress, the National Transportation Safety Board (NTSB), and
others; and to formulate national policy. In June 2001, FHWA reinstituted the
requirement and its Divisions again began to submit copies of their states’ annual
compliance reviews to Headquarters for evaluation of state Inspection Standards
compliance.

The reports that the Divisions in our review submitted, however, did not focus on
specific bridge deficiencies and state efforts to correct them. In addition, FHWA
found that the weaknesses in the reports and the tendency for Divisions to focus on
individual concerns particular to their states made it difficult to assess the efficacy
of the National Bridge Inspection Program. In 2003, FHWA Headquarters
acknowledged its need for better control over state reporting and began an effort to
improve the annual compliance reviews, starting with standardizing the report
format. FHWA can further improve its oversight by establishing a data-driven
compliance review process to analyze bridge safety trends and target problem
areas at the programmatic level.

FHWA Needs to Develop a Data-Driven, Risk-Based Approach to
Bridge Oversight
Given the small number of bridge engineers and the limited time available to
oversee thousands of bridges, FHWA would benefit from an oversight program
that makes substantially greater use of data and metrics to target bridge inspections
for its compliance reviews. Using an objective analysis of empirical data from the
Bridge Inventory and state databases, a data-driven approach would help FHWA
bridge engineers focus inspections and compliance reviews on a programmatic
level. That is, they could address bridge problems most in need of attention,
including the structural deficiencies identified in this report.

FHWA has resources to help with this approach, such as the Bridge Management
Information System Laboratory (Laboratory) at FHWA’s Turner Fairbank
Highway Research Center. The Laboratory could help provide graphical analysis
and presentation of Bridge Inventory data both geographically (using global
information systems) and over time to the FHWA Office of Bridge Technology.
The Laboratory maintains complete time-series data that allow analysis and
evaluation of trends. Specifically, if a load rating value or load posting flag
appears to have changed from one year to the next, the Laboratory could review
data to determine whether the particular state reported a major repair or
rehabilitation in a prior year. This might then indicate the reason for the change,
although the state would still need to provide details.
                                                                                16

Conversely, if the data indicated that a major rehabilitation was completed in a
prior year, but no change in the load rating or load posting resulted, this
information could be provided to the FHWA Divisions for follow-up. Such
information at the program level would be useful for FHWA’s monitoring of
trends to ensure states properly address structurally deficient bridges.

Better use of data could also improve states’ management of bridge programs and
FHWA oversight. FHWA and AASHTO developed a computerized bridge
management program, Pontis, and a specialized bridge load rating program, Virtis.
Engineers can use computerized bridge management programs such as these to
better manage state bridge inspection programs. They can also identify structural
deficiency trends to efficiently allocate limited funds and resources for repairs
before deficiencies become emergencies or before deterioration requires major
bridge rehabilitation or replacement.

Although we have not evaluated this software, according to AASHTO, Pontis can
store bridge inventory and inspection results, help formulate statewide
preservation and improvement policies to use in evaluating the needs of each
bridge. This information could be used for developing metrics and for preparing a
capital plan to derive maximum benefit from available bridge funds. Virtis can
provide state-of-the-art graphics, and its integrated database can help review and
analyze load rating information and facilitate load posting, as necessary.

The Intermodal Surface Transportation Efficiency Act of 1991, as first introduced,
required states to have a computerized bridge management system, but that
requirement was subsequently dropped. However, NTSB, which we consulted for
its expertise in highway safety, and FHWA still consider computerized systems to
be useful tools in a state’s overall bridge management program. Accordingly,
FHWA and the states are working together to implement bridge management
systems. For example, Massachusetts has started implementing Pontis, while New
York has been exploring use of Pontis. Texas is examining the use of Pontis in
parallel with its current bridge management system. More complete and better
quality bridge data at the state level would improve Federal-level information
when states submit the data to the Bridge Inventory.

Computerized bridge management systems can also provide useful information for
FHWA’s risk assessments at the program level. FHWA performs risk assessments
to identify the most vulnerable state programs requiring oversight attention and to
concentrate resources in areas having the most risk. The bridge program is one of
those areas. However, our November 2004 report noted inconsistencies in FHWA
Divisions’ reviews of major components in the bridge program.

For example, one FHWA Division did not evaluate compliance with Inspection
Standards or Rehabilitation Program practices, even though 30 percent of the
                                                                                  17

state’s bridges were deficient. Based on concerns raised, FHWA should focus its
risk assessments on critical components of each state’s bridge program,
particularly the bridge management system, states’ adherence to Inspection
Standards, the National Bridge Inventory, and Rehabilitation Program practices,
including other components as necessary.

RECOMMENDATIONS
We recommend that FHWA:

1. Revise its annual compliance reviews of state bridge programs to address the
   most serious deficiencies found during bridge inspections. FHWA should
   develop a risk-based, data-driven approach and metrics to focus on ensuring
   that states:

   a. Maintain up-to-date maximum weight limit records through state quality
      assurance/quality control programs that ensure current bridge conditions are
      accurately incorporated into load rating calculations.

   b. Post accurate maximum weight limit signs on bridges in a timely manner,
      when inspections indicate posting or revised posting should occur.

   c. Coordinate with other states to improve the accuracy and completeness of
      the Bridge Inventory and reporting of results to Congress. FHWA should
      focus on reducing discrepancies, including the most frequent deficiency
      identified in our statistical sample—the failure of information in the Bridge
      Inventory to match bridge load rating results in state databases.

2. Evaluate greater use of computerized bridge management systems to improve
   states’ bridge inspection programs and enhance the accuracy of bridge load
   ratings.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

We provided FHWA a draft of this report on January 6, 2006. In its March 21,
2006 written comments, FHWA gave its overall concurrence in response to both
recommendations 1 and 2, and provided examples of planned actions and
initiatives it supports to improve oversight of load ratings and postings on
structurally deficient bridges on the National Highway System. We carefully
reviewed FHWA’s response, together with additional detailed information FHWA
attached as clarification, and revised certain sections of the report as appropriate.
FHWA’s complete comments are in the Appendix to this final report.
                                                                                18

Given the long lead time and complex coordination needed to address bridge
deficiencies, it may take years before corrective action is actually completed.
Therefore, FHWA may want to consider beginning implementation of its plan of
actions to improve oversight of load ratings and postings in 2006, rather than
January 2007, as proposed in its response. Bridge load rating has been a concern
of FHWA for more than 12 years. In November 1993, the chief of FHWA’s
Bridge Division issued a policy memorandum reporting concerns that “Apparent
discrepancies in load ratings being reported by some States suggests that load
rating practices and frequency of review may, in those cases, be at variance with
the NBIS and the AASHTO Manual.”

The policy memorandum requested Regional and Division Offices to include load
rating practices in their 1994 NBIS reviews, and to report on the practices and
status of bridge load rating in each State. As noted in our report, these practices
still remain a problem.

Specifically, FHWA should factor the bridge issues discussed in this report into
the risk assessment process that is an integral part of the Financial Integrity
Review and Evaluation (FIRE) Program. In developing the FIRE Program,
FHWA should focus on identifying similar bridge concerns in states that were not
reviewed in depth by our audit.

ACTION REQUIRED
We request that FHWA provide written comments within 30 days containing its
formal response to our comments regarding a 2006 time frame for implementation
of FHWA’s plan of actions and use of FIRE Program risk assessments to improve
oversight of load ratings and postings on structurally deficient bridges on the
National Highway System. We appreciate the cooperation and assistance
provided by you and your staff during this audit. If you have questions about this
report, please call me at (202) 366-2017 or Engineer Advisor Rodolfo Pérez, at
(202) 366-2002.
                                                                                19


EXHIBIT A. ADDITIONAL BACKGROUND
Federal oversight of bridge inspections and funding of bridge rehabilitation and
replacement constitute a significant safety issue for the U.S. Department of
Transportation. In 1967, stress corrosion caused the Silver Bridge on the Ohio
River between Ohio and West Virginia to collapse, killing 46 people.
In 1968, with hope of avoiding further catastrophes, Congress responded by
holding hearings on bridge design, inspection, and maintenance, and declaring that
serious safety concerns and problems of lost investment and replacement costs
“elevate bridge inspection and maintenance problems to national priority.”
FHWA responded to the congressional mandate in 1971 by issuing Inspection
Standards for locating, inspecting, evaluating, and acting upon bridge deficiencies
to ensure that the bridges are safe for the traveling public. Disaster struck again
with the collapses of the Mianus River Bridge in Connecticut in 1983 (3 deaths);
the Schoharie Creek Bridge in New York State in 1987 (10 deaths); the Hatchie
River Bridge in Tennessee in 1989 (8 deaths); and the Arroyo Pasajero Bridge
near Coalinga, California, in 1995 (7 deaths). The collapses were caused by
structural deficiencies that were created by the elements, investigations showed.
According to the Inspection Standards that FHWA created in 1971 and last
updated in 2005, when state bridge inspectors identify serious deficiencies that
pose major safety problems, the state or other authority is responsible for either:
   • making repairs to correct the deficiencies,
   • posting restriction signs as to the bridge’s load-carrying capacity with
     respect to size and weight of vehicles allowed to cross the bridge, or
   • closing the bridge to vehicular traffic.
In 1978, Congress created the Highway Bridge Replacement and Rehabilitation
Program (Rehabilitation Program) and the Discretionary Bridge Program to
provide states with funds needed to correct structural deficiencies. The programs
apportion bridge funds to the states according to a Federal formula and the results
of the Bridge Inventory.
States are responsible for performing bridge inspections and maintaining federally
funded roads and bridges in good condition. FHWA provides oversight of state
bridge inspections and programs and maintains an inventory of all bridges. The
primary purpose of Inspection Standards is to locate and evaluate existing bridge
deficiencies to ensure public safety. Title 23 of the Code of Federal Regulations,
Part 650, prescribes FHWA policies and procedures for managing highway
bridges, and provides guidance for the Inspection Standards. Chapter 1, Subpart C
of Part 650 requires bridge owners to follow Inspection Standards.




EXHIBIT A. Background
                                                                                   20

The Inspection Standards provide a definition of bridges (greater than 20 feet
long) and requirements regarding the frequency of bridge inspections,
qualifications of inspection personnel, and data to be collected. According to the
Inspection Standards:
   • Most bridges are to be inspected at 2-year intervals, but more frequent
     inspections are required on certain structurally deficient bridges that pose a
     higher than normal potential for collapse.
   • Each state is required to have a bridge inspection organization capable of
     performing inspections, preparing reports, and determining bridge ratings in
     accordance with AASHTO and provisions in the Code of Federal
     Regulations.
   • Each bridge shall be rated as to its safe load carrying capacity. If the
     calculated load rating is less than the state’s maximum legal load, the
     bridge must have signs posted as to the permitted load or be closed.
   • The findings and results of bridge inspections, including the safe load
     ratings, shall be recorded by state inspectors on standard paper or electronic
     forms, and submitted to the Bridge Inventory.
FHWA is responsible for maintaining an inventory of the Nation’s public highway
bridges in its Bridge Inventory database and submitting a biennial report to
Congress on the conditions of all bridges. FHWA also performs an annual review
of each state’s bridge inspection program and compliance with inspection
standards. Bridge Inventory inspection reports provide important information on
bridge location, age, and ownership. Each year, FHWA’s Office of Bridge
Technology collects Bridge Inventory data from the states, updates the Bridge
Inventory. In recent years, the number of structurally deficient National Highway
System bridges nationwide has gradually declined from 6,715 in 2000 to 6,399 in
2004.
The National Highway System includes the Dwight D. Eisenhower National
System of Interstate and Defense Highways (Interstate System), urban and rural
principal arterial routes, connector highways and toll roads that link arterial routes
to major intermodal transportation facilities, and connector highways that link
major military installations to highways. Federal law sets 40 tons as the maximum
gross vehicle weight on the National Highway System, except for longer-
combination vehicles on portions of the Interstate System in 22 states. Longer-
combination vehicles are double-trailer, triple-trailer, and other truck
configurations. The maximum gross vehicle weight for those vehicles differs by
state and ranges from 43.2 to 82 tons. There are similar exceptions granted to
forestry, logging, and mining vehicles, and those carrying specially permitted
oversize loads.



EXHIBIT A. Background
                                                                                  21


EXHIBIT B. SCOPE AND METHODOLOGY
The audit included a judgmental sample in addition to a separate statistical sample.
For the judgmental sample, we reviewed inspection files for 252 structurally
deficient National Highway System bridges in New York, Texas, and
Massachusetts. From these, we referred the files for 43 bridges to the Corps for
detailed technical review of the deficiencies. The Corps then reviewed a separate,
nationwide, statistical sample of 67 bridges to determine the extent of the
deficiencies identified in the judgmental sample.
When we began our survey, the 2002 Bridge Inventory was the most current data
available. Nationwide, in 2002, FHWA reported 6,476 structurally deficient
National Highway System bridges, of which 248 were in New York (4 percent),
207 in Texas (3 percent), and 181 in Massachusetts (3 percent). New York and
Texas were selected based on their large number of bridges and geographical
differences, while Massachusetts was selected based on concerns about its bridge
program.
Together with engineers from the state, Corps, and FHWA, the audit team visited
a total of five bridges in the three states to observe inspection procedures and view
bridge deficiencies on-site. We also reviewed inspection files for 252 bridges.
These bridges were judgmentally selected from the state DOT districts having the
most structurally deficient bridges, including 60 bridges in New York, 83 in
Texas, and 109 in Massachusetts. From this judgmental sample, the Corps
examined approximately 100 inspection records and load rating calculations for
43 bridges in the three states and documented the problems found with the records.
Where possible, we reviewed inspection reports for the three most recent
inspection cycles to determine whether they had been inspected in accordance
with Inspection Standards, AASHTO guidelines, and state bridge inspection and
inventory criteria. We also reviewed FHWA’s internal controls and oversight over
bridge inspections, bridge inventory, frequency of inspections, and qualifications
of inspectors. The documents we reviewed generally covered the period from
1998 to 2004.
Our audit was conducted from November 2003 through October 2004, in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States. The original objectives of this
audit were to evaluate (1) whether structurally deficient bridges on the National
Highway System have been inspected in accordance with Inspection Standards
and (2) whether FHWA’s oversight was effective in addressing the deficiencies on
these bridges. The objectives as restated during the audit were to evaluate whether
state transportation departments inspected structurally deficient bridges on the
National Highway System in accordance with Inspection Standards, whether state
transportation departments properly calculated load limits and posted maximum


EXHIBIT B. Scope and Methodology
                                                                                22

weight limits, and whether FHWA exercised effective oversight of the states’
actions in inspecting bridges, calculating load limits, and posting maximum weight
limits.
In addition to reviewing pertinent inspection and engineering records and reports,
we interviewed staff from the FHWA Office of Bridge Technology, Office of
Research and Development, FHWA Divisions, and the states. We used FHWA’s
Bridge Inventory as our point of reference, as this information is reported to
Congress and is the basis for funding and policy decisions. We also compared the
information in state inspection reports with the Bridge Inventory to determine the
accuracy of Bridge Inventory data.
Throughout the audit, the OIG engineer advisor provided guidance to the audit
team on how to identify potential safety concerns and questions involving load
rating and posting on the judgmentally selected bridges from the three states,
which were referred to the Corps for a detailed technical review. The
methodology and scope of work for the Corps included reviews using the
procedures of the Inspection Standards, AASHTO guidelines and state criteria,
and cited specific inaccuracies and/or inconsistencies found in the cases reviewed.
For example, the Corps found bridges with structure inventory, and appraisal data
entries incorrectly coded including outdated or unsupported load ratings and
posted operational status. In addition, we discussed our load rating and posting
concerns with bridge experts from NTSB and AASHTO.

STATISTICAL SAMPLING METHODOLOGY
The Corps performed a review of load rating and posting documentation for
67 structures that the OIG senior statistician randomly selected from the universe
of 5,902 structurally deficient National Highway System bridges on the 2003
Bridge Inventory. The objective was to determine the extent of the inconsistencies
and inaccuracies in load rating and posting procedures that the Corps identified in
its separate review of the judgmental sample of bridges in three states. The Corps
performed the following tasks:
   • reviewed 67 load rating reports and supporting documentation for bridges
     in 30 different states and the territory of Puerto Rico, which had been
     randomly selected from all 50 states, Puerto Rico, and the District of
     Columbia.
   • compared load rating procedures used in the reports to those accepted by
     FHWA,
   • checked whether bridge member condition was adequately represented in
     the load rating calculations,
   • reviewed Bridge Inventory data sheets to determine whether the provided
     data matched that reported to the Bridge Inventory, and


EXHIBIT B. Scope and Methodology
                                                                           23

   • checked whether bridges were properly posted for load based on the load
     rating calculations and that load postings were properly reflected in the
     inventory data.




EXHIBIT B. Scope and Methodology
                                                                                                       24


EXHIBIT C. STRUCTURALLY DEFICIENT BRIDGE
DATA BY STATE




               Figure 3. Percentage of National Highway System Bridges
                  That are Structurally Deficient Within Each State13




                 AK                  HI
                                                                                          PR




                  0 - 4.9%         5 - 9.9%          10 - 14.9%         15 - 19.9%             23%
Source of Data: FHWA 2003 National Bridge Inventory
Note: The state with 23 percent is Rhode Island.




13
     For the District of Columbia, not shown on the map, the percentage of National Highway System bridges
     that were structurally deficient in 2003 was 4.2 percent.


EXHIBIT C. Structurally Deficient Bridge Data by State
                                                                                                           25




                    Figure 4. Total Average Daily Vehicle Traffic
            Over Structurally Deficient National Highway System Bridges14




                                                                        0 - 10,000
                 AK                   HI
                                                                                             PR
                                                                        10,001 - 20,000

                                                                        20,001 - 30,000

                                                                        30,001 - 40,000

                                                                        40,001 - 50,000

                                                                        > 50,000

Source of Data: FHWA 2004 National Bridge Inventory




14
     The total average daily vehicle traffic in 2004 over structurally deficient National Highway System
     bridges in the District of Columbia, not shown on the map, was 58,933.


EXHIBIT C. Structurally Deficient Bridge Data by State
                                                                               26
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
      The following individuals contributed to this report.

      Name                               Title

      Kurt Hyde                          Assistant Inspector General
                                          for Surface and Maritime Programs

      Michael E. Goldstein               Program Director

      Jeffrey Ong                        Project Manager

      Stephen Gruner                     Senior Analyst

      Carl Christian                     Auditor

      Joseph Tschurilow                  Auditor

      Farrin Tamaddon                    Auditor

      Rodolfo Pérez                      OIG Engineer Advisor

      Petra Rose                         OIG Senior Statistician

      Clayton Boyce                      Strategic Communications Consultant

      Harriet Lambert                    Writer-Editor




EXHIBIT D. Major Contributors to This Report
                                                                                                                    27
APPENDIX: FHWA RESPONSE
                                                             Memorandum

Subject:   INFORMATION: Federal Highway Administration                                 Date        March 21, 2006
           Response to Office of Inspector General (OIG) Draft
           Report, “Audit of Oversight of Load Ratings and Postings
            On Structurally Deficient Bridges”
                                                                                       Reply to
From:      J. Richard Capka                                                            Attn. of:   HIBT-1
           Deputy Administrator

To:        Kurt Hyde
           Assistant Inspector General
            for Surface and Maritime Programs (JA-40)
           Thank you for the opportunity to review and comment on the OIG Draft Report, “Audit of Oversight
           of Load Ratings and Postings On Structurally Deficient Bridges.” We concur with the
           recommendations and plan to implement them as described herein.

           Following are our comments and planned actions on the specific audit report
           recommendations.

           Recommendation 1: “Revise its annual compliance reviews of state bridge programs to
           address the most serious deficiencies found during bridge inspections. FHWA should
           develop a
           risk-based, data-driven approach and metrics to focus on ensuring that states:

           a.   Maintain up-to-date maximum weight limit records through state quality assurance/quality
                control programs that ensure current bridge conditions are accurately incorporated into load
                rating calculations.

           b.   Post accurate maximum weight limit signs on bridges in a timely manner, when inspections
                indicate posting or revised posting should occur.

           c.   Coordinate with other states to improve the accuracy and completeness of the Bridge
                Inventory and reporting of results to Congress. FHWA should focus on reducing
                discrepancies, including the most frequent deficiency identified in our statistical sample—the
                failure of information in the Bridge Inventory to match bridge load rating results in state
                databases.”




APPENDIX: FHWA Response
                                                                                              28
      Response: Concur with comments. The FHWA has already undertaken several actions
      that will help to address this recommendation. With the issuance of the updated National
      Bridge Inspection Standards (NBIS) regulation in January 2005, States are now required to
      assure that systematic quality control (QC) and quality assurance (QA) procedures are used
      to maintain a high degree of accuracy and consistency in the inspection program. In
      November 2005, FHWA issued a recommended framework for comprehensive QC/QA
      procedures, which includes quality of load ratings.

      The updated NBIS regulation also introduced a requirement stating that the individual
      charged with the overall responsibility for load rating bridges must be a registered
      professional engineer, and a requirement to establish a statewide procedure to assure that
      critical findings are addressed in a timely manner. Periodic notification to the FHWA of
      the actions taken to resolve or monitor critical findings must be part of the procedures.

      The National Bridge Inventory (NBI) database, which is the official source of all national
      bridge information, contains several report tools for data analysis as well as a new module
      scheduled for implementation in April of 2006 that will allow bridge engineers to quickly
      identify changes in items that typically would not change from year to year, such as load
      rating data.

      In 2003, FHWA initiated the use of a standardized format for use by the Division Offices to submit
      the NBIS annual program review summary reports. The standard format also serves as a guideline
      for the reviews ensuring that all aspects of the bridge inspection program are addressed each year.
      Sufficient flexibility exists for Divisions to focus their reviews on areas of greatest concern, risk or
      interest.

      Other initiatives are currently underway that will lead to further improvements in load rating
      practices and data reliability. These include the development of training in Load and Resistance
      Factor Rating (LRFR) methods, technical assistance with LRFR implementation, multi-State
      bridge inspection program exchanges and workshops, and clarification and updating of the 1995
      NBI Coding Guide. We work closely with the American Association of State Highway and
      Transportation Officials (AASHTO) on each of these initiatives to facilitate acceptance and
      implementation.

      The FHWA recognizes that additional proactive oversight measures are needed. Accordingly, by
      August 31, 2006, the FHWA will convene a working group of representatives from the Office of
      Bridge Technology, Division Offices, and the Resource Center to evaluate options and make
      recommendations for incorporating the audit recommendations specific to load rating and posting
      into our annual bridge inspection program compliance reviews conducted by the Division Offices.
      The evaluation of options will consider the risk, availability of data and mining tools, and the
      availability of resources within FHWA. The working group will be requested to develop and issue
      a plan of action by January 2007. Since the NBIS regulation requires that the person responsible
      for load rating be a professional engineer, we will need to carefully consider the qualifications of
      those FHWA staff who review load rating calculations. There is currently no requirement that our
      own bridge engineers be registered professional engineers.

      Recommendation 2: “Evaluate greater use of computerized bridge management systems to
      improve states’ bridge inspection programs and enhance the accuracy of bridge load ratings.”
APPENDIX: FHWA Response
                                                                                                         29
      Response: Concur with comments. Although the 1995 NHS Designation Act made
      implementation of bridge management systems (BMSs), originally required under the Intermodal
      Surface Transportation Efficiency Act of 1991, optional, the FHWA has supported the use of
      BMSs for many years and is continuously evaluating ways to assist States and other bridge owning
      agencies with implementation efforts. We note however that greater use of BMSs does not
      necessarily ensure improved accuracy of load ratings. The use of quality data and understanding
      of the functionality, capabilities, and limitations of BMSs and load rating tools are the key factors.
      Accordingly, we have undertaken many activities targeted to these key areas including:

                  Technical assistance to the more than 45 States and municipalities that license the
           Pontis BMS software.
                  Case studies of BMS utilization in California, Florida, and South Dakota.
                  Development and delivery of training for the Pontis BMS software and element level
           inspections.
                  Executive sessions to educate upper management within State DOTs.

      The FHWA will continue its efforts in each of these areas. In 2003, FHWA initiated a research
      project to collect element level bridge inspection data from the States and conduct exploratory data
      analysis. In 2006, we will initiate a follow-on project to conduct additional analysis focused on the
      potential for beneficial use of element level data for bridge management at the national level.

      In closing, we would like to emphasize that the FHWA’s role is to provide general oversight of the
      bridge inspection program. Our role is not to carry out the quality control and quality assurance
      responsibilities of the States. The FHWA Bridge Program Manual documents the guidelines and
      procedures typically followed during our annual NBIS program reviews and serves as a valuable
      resource to our staff. The annual review procedures and approach that we have implemented are
      consistent with the general direction of FHWA oversight responsibilities set by Congress in past
      and current legislation balanced against our available resources.

      The efforts of the OIG auditors to further improve national bridge inspection and load rating
      practices are greatly appreciated. If you have any questions or comments regarding this response,
      please contact Mr. Thomas Everett at (202) 366-4675.




APPENDIX: FHWA Response
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to assist screenreaders.
Figure 2-p.24 Percentage of NHS Bridges That Are Structurally Deficient Within Each State

     0-4.9%            5-9.9%         10-14.9%         15-19.9%           23%
  States       %    States       %   States    %     States     %     States   %
  1 AL        4%    1 CO        5%   1 AK 13%        1 MI     17%     1 RI    23%
  2 AZ        1%    2 HI        7%   2 CA 13%        2 PA 15%
  3 AR        4%    3 IL        7%   3 OK 13%
  4 CT        4%    4 IA        6%   4 VT 12%
  5 DE        2%    5 ME        8%   5 WV 10%
  6 DC        4%    6 MA        9%   6 PR 10%
  7 FL        1%    7 MO        6%
  8 GA        2%    8 NE        5%
  9 ID        4%    9 NH        8%
 10 IN        3%   10 NJ        7%
 11 KS        2%   11 NM        7%
 12 KY        2%   12 NY        6%
 13 LA        4%   13 NC        7%
 14 MD        3%   14 OR        8%
 15 MN        3%   15 SC        7%
 16 MS        2%   16 SD        9%
 17 MT        1%   17 UT        7%
 18 NV        3%   18 WI        6%
 19 ND        1%   19 WY        9%
 20 OH        3%
 21 TN        3%
 22 TX        1%
 23 VA        4%
 24 WA        4%

Source: WP 215 3/6
Figure 3- p.25 Total Average Daily Vehicle Traffic Over SD NHS Bridges

      0-10,000             10,001-20,000          20,001-30,000            30,001-40,000       40,001-50,000          >50,000
 States    Avg. ADT      States   Avg. ADT      States   Avg. ADT        States   Avg. ADT   States   Avg. ADT   States   Avg. ADT
 1 AK        4,800       1 AL       14,150      1 CO       27,255        1 CT       48,075   1 MD       48,899   1 CA       59,837
 2 MS        5,983       2 AZ       15,850      2 FL       27,209        2 HI       31,613   2 MA       40,006   2 DE       60,834
 3 MT        5,059       3 AR       12,089      3 IL       25,968        3 KY       38,589   3 NY       46,232   3 DC       58,933
 4 NE        6,571       4 GA       18,993      4 MI       23,260        4 MN       35,851   4 RI       41,215
 5 ND        3,778       5 ID       14,988      5 MO       23,908        5 NJ       39,761   5 TN       41,955
 6 SD        5,033       6 IN       14,806      6 NH       22,071                            6 PR       48,054
 7 VT        7,966       7 IA       12,768      7 NC       20,684
 8 WY        3,781       8 KS       11,093      8 OH       24,245
                         9 LA       18,694      9 PA       24,686
                        10 ME       12,175     10 TX       21,008
                        11 NV       10,623     11 UT       21,533
                        12 NM       11,139     12 VA       29,843
                        13 OK       15,560     13 WI       24,906
                        14 OR       12,449
                        15 SC       15,105
                        16 WA       15,408
                        17 WV       11,802

Source: WP 215 5/6
